HHS/OIG - Audit,"Audit of the Reasonableness of Pension Charges to the Federal Government for the North Carolina Teachers' and State Employees' Retirement System,"(A-04-02-00011)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of the Reasonableness of Pension Charges to the Federal Government for the North Carolina Teachers' and State
Employees' Retirement System," (A-04-02-00011)
May 14, 2004
Complete
Text of Report is available in PDF format (1.07 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that North Carolina claimed Federal reimbursement for unfunded retirement
contributions totaling $127.4 million ($7.8 million Federal share).  Under Federal cost principles, States are not
entitled to seek reimbursement from the Federal Government for pension costs until such costs are funded.  In a related
matter, we noted that the North Carolina retirement funds assets exceeded actuarial liabilities by $4.4 billion ($315
million Federal share) as of December 31, 2001.  North Carolina had taken steps to address the actuarial surplus,
reducing future employer contribution rates, granting cost-of-living increases to retirees, and reducing the assumed return
on investment rates.  However, the actuarial surplus continues.  Therefore, North Carolina should continue its
efforts to address the surplus and periodically reassess the contribution rates to ensure actuarial balance.  We recommended
that North Carolina refund the $7.8 million to the Federal Government.